Federal Communications Commission
     Office of Inspector General




  FY 2002 Government Information Security
 Reform Act (GISRA) Independent Evaluation


               September 16, 2002
                     TABLE OF CONTENTS

                                                                Page


EXECUTIVE SUMMARY                                                 2


BACKGROUND                                                        2


OBJECTIVE                                                         2


SCOPE                                                             3


RESULTS OF FISCAL YEAR 2002 INDEPENDENT EVALUATION                5


APPENDIX A          OIG Responses to OMB M-02-09 GISRA
                    Reporting Questions                         A-1

APPENDIX B          Report on Automated Auction System (Audit   B-1
                    Report No. 02-AUD-02-08)




                                                                  1
                                EXECUTIVE SUMMARY



Background

The Government Information Security Reform Act (“GISRA” or “the Security Act”) was
signed into law as part of the Fiscal Year (FY) 2001 Defense Authorization Act (Public
Law 106-398). The Security Act amended the Paper Reduction Act of 1995 by adding a
new subchapter on information security. The Security Act, which became effective on
November 30, 2000, applies to all Federal agencies.

A key provision of the Security Act requires that the agency Office of Inspector General
(IG), or independent evaluators designated by the IG, perform an annual evaluation of the
agency’s information security program and practices. The Federal Communications
Commission’s (“the Commission” or “FCC”) IG engaged KPMG, LLP to conduct the
independent evaluation of the FCC’s information security program and practices for FY
2002.

The purpose of the evaluation was to review the Commission’s security program
including, but not limited to, security policies, security architecture, business continuity,
security capital planning, critical infrastructure, and security program planning and
management.

Using the National Institute of Standards and Technology (NIST) “Self-Assessment
Guide for Information Technology Systems (Self-Assessment Guide)” as a basis for our
methodology, our objective was to evaluate the effectiveness of the Commission’s
information security program by assessing the risk for each component of the program.
As applicable, additional guidance was received from the methodology provided in the
Federal Information System Control Audit Manual (FISCAM), as well as other laws and
directives related to management and protection of Federal information resources.

The Office of Management and Budget’s (OMB) Memoranda M-01-08, entitled
“Guidance on Implementing the Government Information Security Act” and M-02-09,
entitled “Reporting Instructions for the Government Information Security Reform Act
and Updated Guidance on Security Plans of Action” were followed to perform and report
the results of the independent evaluation.


Evaluation Objective

Our objective was to evaluate the effectiveness of the Commission’s information security
program by assessing the risk for each component of the program. The evaluation
encompassed a review of the Commission’s security program including security policies,
security architecture, business continuity, security capital planning, critical infrastructure,
and security program planning and management.



                                                                                                2
The specific objectives of this review were as follows:

   1. Obtain an understanding of the Commission’s Information Technology (IT)
      infrastructure.

   2. Obtain an understanding of the Commission’s information security program and
      practices.

   3. Use the GISRA security assessment (i.e. NIST Self-Assessment Guide and
      FISCAM) tools to evaluate the effectiveness of the Commission’s information
      security program and assess risk for each component of the program. At a
      minimum, the assessment was required to include an identification and ranking of
      the critical IS threats to the FCC IT infrastructure on a risk vulnerability basis.

   4. Prepare the annual submission in accordance with the OMB reporting
      requirements mandated under GISRA for FY 2002. In addition to preparing the
      annual submission, the contractor was required to provide a detailed report that
      (1) identifies and ranks the critical security risk factors and (2) contains
      observations and recommendations for improvements, if any.

   5. Follow-up on the findings of the Fiscal Year 2001 GISRA review that are
      documented in OIG report number, 01-AUD-11-43 and entitled Report on
      Government Information Security Reform Act Evaluation - Findings and
      Recommendations, issued November 29, 2001.


Evaluation Scope

The scope of our independent evaluation included the security infrastructure managed by
the Office of Managing Director’s Information Technology Center (ITC) and the
Auctions Automation Branch of the Commission’s Wireless Telecommunications Bureau
(WTB). The Security Act also requires that agencies select an appropriate subset of
business applications for review. Our audit of the Automated Auction System, follow-up
audit of computer control conditions at the FCC’s Consumer Center, and audit of
Auctions physical security controls satisfy this requirement. The conclusions of these
audits are being included with the results of our independent evaluation of the
Commission’s information security program and practices.

The evaluation encompassed a review of the Commission’s security program including,
but not limited to, security policies, security architecture, business continuity, security
capital planning, critical infrastructure, and security program planning and management.
During our evaluation we reviewed documentation provided by the Commission,
reviewed previously performed special reviews and audits, conducted interviews of
Agency staff, and performed other activities of inquiry and observation.



                                                                                              3
Our procedures were designed to comply with applicable auditing standards and
guidelines, specifically the Generally Accepted Government Auditing Standards
(GAGAS).

The evaluation methodology used was the National Institute of Standards and
Technology (NIST) “Self-Assessment Guide for Information Technology Systems (Self-
Assessment Guide)”. As applicable, the methodology prescribed by the Federal
Information Security Control Audit Manual (FISCAM) was used to assess management,
operational, and technical controls during our risk assessment, as well as the following
laws and directives related to management and protection of Federal information
resources:

      Presidential Decision Directive (PDD) 63, entitled “Critical Infrastructure
       Protection.”
      PDD-67, entitled “Continuity of Operations Planning (COOP)”.
      OMB Circular A-130, entitled “Management of Federal Information Resources,”
       as revised on November 30, 2000.
      OMB M-01-08, entitled “Guidance on Implementing the Government Information
       Security Reform Act,” dated January 16, 2001.
      OMB M-97-16, entitled “Information Technology Architectures.”
      OMB M-97-02, entitled “Funding Information Systems Investments.”
      The Computer Security Act of 1987 (PL 100-235).
      OMB M-01-24, entitled “Reporting on the Government Information Security
       Reform Act,” dated June 22, 2001
      FCC Instruction 1479.2, “Computer Security Program Directive.”

Our observations have been organized according to the NIST control areas of
management controls, operational controls, and technical controls. The control areas are
defined below and the specific control techniques addressed by each are outlined.

   Management Controls – Management controls focus on the management of the IT
   security system and the management of risk for a system. They are techniques and
   concerns that are normally addressed by management. The specific management
   control objectives addressed were:

          Risk Management
          Review of Security Controls
          Life Cycle
          Authorize Processing (Certification and Accreditation)
          System Security Plan

   Operational Controls – Operational controls address security methods focusing on
   mechanisms primarily implemented and executed by people (as opposed to systems).
   These controls are put in place to improve the security of a particular system (or
   group of systems). They often require technical or specialized expertise and often



                                                                                           4
   rely upon management activities as well as technical controls. The specific
   operational control objectives addressed are:

          Personnel Security
          Physical and Environmental Protection
          Production, Input/Output Controls
          Contingency Planning
          Hardware and System Software Maintenance
          Data Integrity
          Documentation
          Security Awareness, Training and Education
          Incident Response Capability

   Technical Controls - Technical controls focus on security controls that the computer
   system executes. The controls can provide automated protection for unauthorized
   access or misuse, facilitate detection of security violations, and support security
   requirements for applications and data. The specific technical operational control
   objectives addressed are:

          Identification and Authentication
          Audit Trails
          Logical Access Controls


Results of Fiscal Year 2002 Independent Evaluation

We have concluded that the Federal Communications Commission is dedicated to
implementing and maintaining effective security control measures throughout the agency.
Our independent evaluation for the current fiscal year and audit/follow-up audits of the
Automated Auction System, Consumer Center, and Auctions Physical Security yielded
several positive observations relative to the Commission’s information security program
and practices.

During the prior year’s independent evaluation, security deficiencies were reported and
recommendations for improvement made to the agency. The Commission developed and
has reported on a quarterly basis its plan of actions and milestones (POA&M) for each
finding, as required by OMB M-01-24, “Reporting Instructions for the Government
Information Security Reform Act”. As indicated in the POA&Ms issued to OMB, FCC
management is effectively monitoring and tracking the progress of the corrective actions
planned for each of the prior year’s findings. We identified that several of the FY 2001
findings have been corrected and that corrective action has been defined and/or enacted
for all others.

The FCC’s IT Strategic Plan was published in June of 2002. The plan outlines the near
and long-term directions for the agency’s IT architecture and program. It also sets forth
goals which reflect the core mission and values of the IT program as well as the agency’s



                                                                                          5
core strategy goals of Broadband, Spectrum, Media, Homeland Security, Competition,
and Modernizing the FCC. The agency is also in the process of developing a Computer
Security Strategic Plan which will address management, operational, and technical
controls, physical protection of information resources, and future computer security needs
of the Commission.

During the reporting year, ITC, in a joint effort with system owners, completed security
plans for sixteen (16) of its seventeen (17) major applications and general support
systems, including the Automated Auction System, and the Auctions Network general
support system. A security plan was also developed for the FCC’s Consumer Center.
Our review of the plans indicates that they incorporate elements recommended by OMB
Circular A-130. Each security plan also includes newly developed Rules of Behavior for
application users to execute. Additionally, Security Tests and Evaluations (ST&E) were
completed for eleven (11) of the FCC’s fifteen (15) major applications, including the
Automated Auction System. Control weaknesses identified during the evaluations have
been communicated to system owners for resolution prior to granting final certifications
and accreditations.

The FCC has recently completed a number of Computer Security Desk Reference Guides
that provide technical procedures for system administrators and developers as guides on
implementing the information security program and practices. These include the Security
Guide for UNIX System Development and Administration, Identification and
Authentication on FCC Computer Systems, Security Guide for Application and System
Management Guide, Computer Incident Handling Guide, and the Computer Incident
Response Team Guide.

The Commission’s IT Contingency Plan is being drafted. The plan will address
resumption and continuity of services at the FCC’s Portals I location, as well as the
Consumer Center in Gettysburg, PA, which has been designated as the agency’s hotsite.
The approach has been to involve business process owners from the various bureaus as
well as ITC and Consumer Center staff. Once the draft is completed, the IT Contingency
Plan will be tested, finalized, and integrated with the Facility Contingency Plan to
comprise an overall agency plan for continuity of services.

The Computer Security Office continues to proactively promote awareness of
information security at all levels of the agency. Numerous security briefings were held
throughout the year to educate program and bureau officials on information security
issues. Additionally, ITC has established the Computer Security Program repository on
the Commission’s Intranet where FCC policies, procedures, bulletins, and alerts on
protecting agency’s computer resources are easily accessible to ITC staff and customers
at the Portals I and Consumer Center locations.

While the Commission has implemented numerous positive controls over its computer
resources, we identified areas of improvement for management, operational, and
technical controls. Implementing corrective areas for identified weaknesses will increase
the effectiveness of the agency’s information security program and practices. As



                                                                                          6
prescribed by OMB M-02-09, “Reporting Instructions for the Government Information
Security Reform Act and Updated Guidance on Security Plans of Action”, a plan of
action for each finding identified during the FY 2002 independent evaluation, including
milestones and completion dates, should be developed by the agency. The plans should
identify the corrective actions that the agency intends to take to address control areas that
need strengthening and identify any obstacles which may impede correction of
deficiencies noted.

The final report of detailed findings and recommendations resulting from the FY2002
GISRA independent evaluation is expected to be completed and issued by November 30,
2002.




                                                                                            7
                    APPENDIX A




FY 2002 Government Information Security Reform Act
         (GISRA) Independent Evaluation




Federal Communications Commission - Office of Inspector General
 Responses to OMB M-02-09 GISRA Reporting Questions
The Office of Management and Budget (OMB) issued memorandum M-02-09 on July 2,
2002 as guidance to agencies on reporting the results of Fiscal Year (FY) 2002
independent evaluations performed in accordance with the Government Information
Security Reform Act (“GISRA” or “the Security Act”). Included with the memorandum
were questions regarding high-level management performance measures that were to be
addressed by Agency Heads, Agency Program Officials, and Offices of Inspector General
(IG). To that end, the Federal Communications Commission’s (“FCC” or
“Commission”) IG, in this appendix to our report, is providing its responses to the
thirteen (13) questions regarding performance measures.

The IG has based its responses on questions related to the Commission’s information
security program and practices on our FY 2002 independent evaluation. Other questions,
not necessarily specific to the agency’s information security program and practices, were
addressed by obtaining information from the Commission’s Information Technology
Center (ITC) who worked with the appropriate agency offices to prepare responses.
These questions, which were outside the scope of our independent evaluation, have not
been validated by the IG. We have re-stated each question posed by OMB and provided
our responses directly after each question.


I. General Overview

   1. OMB Question:
      Identify the agency’s total security funding as found in the agency’s FY02 budget
      request, FY02 budget enacted, and the President’s FY03 budget. This should
      include a breakdown of security costs by each major operating division or bureau
      and include critical infrastructure protection costs that apply to the protection of
      government operations and assets. Do not include funding for critical
      infrastructure protection pertaining to lead agency responsibilities such as
      outreach to industry and the public.

      FCC-IG Response:
      Per instructions issued by the Office of Management and Budget (OMB), the
      Office of Inspector General (IG) is not required to address this question.


   2. OMB Question:
      Identify and describe as necessary the total number of programs and systems in the
      agency, the total number of systems and programs reviewed by the program
      officials, CIOs, or IGs in both last year’s report (FY01) and this year’s report
      (FY02) according to the format provided below. Agencies should specify whether
      they used the NIST self-assessment guide or an agency developed methodology. If
      the latter was used, confirm that all elements of the NIST guide were addressed.




                                                                                      A-1
    FCC-IG Response:

                                             FY01                          FY02
    a. Total number of                        1                             1
    agency programs.
    b. Total number of                         17                            17
    agency systems.
    c. Total number of                          1                             1
    programs reviewed.
    d. Total number of                         17                           17
    systems reviewed.              In FY01, the IG               In FY02, the IG
                                   conducted a review of         conducted a FISCAM-
                                   one (1) major                 based review, which
                                   application, the              incorporated guidance
                                   Consolidated Database         from NIST, FIPS and
                                   System (CDBS). FCC’s          other federal guidance
                                   Information Technology        on one (1) major
                                   Center (ITC) assessed         application, the
                                   general support systems       Automated Auctions
                                   and major applications        System. ITC performed
                                   through a combination         risk assessments in
                                   of a system-wide risk         accordance with NIST
                                   analysis, a penetration       800-26 on all major
                                   test, development of          applications and general
                                   security plans, and           support systems.
                                   security test and
                                   evaluations on several
                                   major applications.


3. OMB Question:
   Identify all material weakness in policies, procedures, or practices as identified
   and required to be reported under existing law. (Section 3534(c)(1)-(2) of the
   Security Act.) Identify the number of reported material weaknesses for FY 01 and
   FY 02, and the number of repeat weaknesses in FY02.

   FCC-IG Response:

                                                                      FY01        FY02
     a. Number of material weaknesses reported.                         5           5
     b. Number of material weaknesses repeated in FY02.                             5
    Sources: Report on the Federal Communications Commission Fiscal Year 2000 Financial
    Statement Audit, June 25, 2001. Report on the Federal Communications Commission Fiscal
    Year 2001 Financial Statement Audit, April 30, 2002.




                                                                                         A-2
II. Responsibilities of Agency Head

1. OMB Question:
   Identify and describe any specific steps taken by the agency head to clearly and
   unambiguously set forth the Security Act’s responsibilities and authorities for the
   agency CIO and program officials. Specifically how are such steps implemented and
   enforced? Can a major operating component of the agency make an IT investment
   decision without review by and concurrence of the agency CIO?

   FCC-IG Response:
   The FCC Chairman has specifically directed the agency Chief Information Officer
   (CIO) and Computer Security Officer (CSO) to act as the single points of contact for
   implementing the Security Act provisions and assessing compliance at all levels of
   the agency. While program officials are responsible for specific missions within the
   Bureau or Office, the CIO has been directed to centrally manage IT security for the
   agency. This mandate has been implemented through the assignment of a CSO and
   the development of a Computer Security Strategic Plan that when completed will be
   integrated with IT Strategic Plan. ITC has indicated that investments are required to
   be reviewed by, and concurred with by the agency CIO. On September 10, 2002,
   FCC-IG began an audit of the Commission’s IT capital investment program and
   practices, which will, among other things, verify whether a major operating
   component can make IT investment decisions without the review and concurrence of
   the CIO.


2. OMB Question:
   How does the head of the agency ensure that the agency’s information security plan
   is practiced throughout the life cycle of each agency system? (Sections
   3533(a)(1)(A)-(B), (b)(3)(C)-(D), (b)(6) and 3534(a)(C) of the Security Act.)
   During the reporting period, did the agency head take any specific and direct actions
   to oversee the performance of 1) agency program officials and 2) the CIO to verify
   that such officials are ensuring that security plans are up-to-date and practiced
   throughout the lifecycle of each system?

   FCC-IG Response:
   On November 8, 2000, the CIO and IG completed a collaborative effort that
   established policy and procedures for development of IT systems over the complete
   life cycle. The FCC Systems Development Life Cycle (SDLC) provides specific
   activities and tasks that must be followed in managing medium to large-scale
   systems. The system security plan development process was modified to specifically
   identify the security controls and processes to be addressed at each stage of the
   SDLC.




                                                                                    A-3
     The IG is planning to conduct an audit of the SDLC policy to evaluate the
     implementation and adoption of the policy and its required procedures. In FY 2002,
     ITC conducted a review of the SDLC process as part of NIST’s Self-Assessment
     Guide (SP 800-26) to ensure that the agency is looking at security controls during the
     appropriate life-cycle phase. Adjustments were made to the process and the changes
     were promulgated throughout the agency.



3.   OMB Question:
     How has the agency integrated its information and information technology security
     program with its critical infrastructure protection responsibilities, and other security
     programs (e.g., continuity of operations, and physical and operational security)?
     (Sections 3534 (a)(1)(B) and (b)(1) of the Security Act.) Does the agency have
     separate staffs devoted to other security programs, are such programs under the
     authority of different agency officials, if so what specific efforts have been taken by
     the agency head or other officials to eliminate unnecessary duplication of overhead
     costs and ensure that policies and procedures are consistent and complimentary
     across the various programs and disciplines?

     FCC-IG Response:
     For the Commission’s information technology resources, physical and operational
     security are integrated and centrally managed under a single program. The Director
     of the Information Technology Center is designated as the Commission’s CIO. The
     CIO is responsible for establishing the agency’s computer security program inclusive
     of network and application security plans, continuity of operations/disaster recovery
     plans, and incident handling procedures, as well as authorizing systems to operate.

     The FCC’s CSO is responsible for the development, administration, and oversight of
     the Commission’s IT security programs. Among the CSO’s duties is developing and
     reviewing general support system and major application security plans, COOP and
     contingency plans, and incident handling procedures, as well as assisting the FCC
     bureaus/offices with IT system security program development and administration.

     The CSO is in the process of drafting a Computer Security Program Strategic Plan
     which will be integrated with the agency’s IT Strategic Plan. This plan will support
     the minimum essential critical programs, identify the infrastructure protection
     planning roles and responsibilities, provide for vulnerability assessments of
     Commission computer-based assets, and establish an emergency management and
     incident handling program, including continuity of operation and disaster recovery
     plans.

     Additionally, the CSO has been appointed to sit on the FCC’s Homeland Security
     Policy Council to provide a link between the agency’s IT security measures and
     Federal Homeland Security initiatives.




                                                                                         A-4
   Oversight of physical security of the Commission has been assigned to the
   Commission’s Security Officer. The Security Officer is responsible for agency
   security operations including physical security, employee and contractor badges, lock
   and key services, site guard services, and a security operations center.


4. OMB Question:
   Has the agency undergone a Project Matrix review? If so, describe the steps the
   agency has taken as a result of the review. If no, describe how the agency identifies
   its critical operations and assets, their interdependencies and interrelationships, and
   how they secure those operations and assets. (Sections 3535(a)(1)(A)-(B), (b)(3)(C)-
   (D), (b)(6) and 3534(a)(C) of the Security Act.)

   FCC-IG Response:
   The FCC has not undergone a Project Matrix review. However, during March 2001 a
   working group was formed to propose an agency definition for “major information
   system” and identify the FCC’s major information systems from a comprehensive
   inventory of FCC information systems.

   In January 2002, the CIO approved the following definition for major information
   system (MIS):

       “…a system – either automated or manual – requiring special management
       attention because it meets at least one of the following attributes:

       •   It has high annual or system life cost associated with its development,
           operations, and maintenance;
       •   It plays a significant role in the efficient administration of the Commission’s
           programs, finances, property, or other revenue generating programs;
       •   It has potential to cause a high risk or harm to the Commission if its
           associated data were compromised.”

   Using the newly approved definition, a new list of “major applications” or “major
   information systems” was approved by the CIO. Major applications added from the
   2002 FCC IT study will be addressed as part of the FY03 security program.


5. OMB Question:
   How does the agency head ensure that the agency, including all components, has
   documented procedures for reporting security incidents and sharing information
   regarding common vulnerabilities? Identify and describe the procedures for external
   reporting to law enforcement authorities and to the General Services
   Administration’s Federal Computer Incident Response Center (FedCIRC). Identify
   actual performance according to the measures and the number of incidents reported
   in the format provided below. (Section 3534(b)(2)(F)(i)-(iii) of the Security Act.)




                                                                                       A-5
   FCC-IG Response:

   a. Total number of agency components including bureaus,                      One (1)
   field activities.
   b. Number of agency components with incident handling                     4 Computer
   and response capability.                                                   Incidents
                                                                           Response Teams
                                                                               (CIRT)
   c. Number of agency components that report to FedCIRC.                         1
   d. Does the agency and its major components share                             Yes
   incident information with FedCIRC in a timely manner
   consistent with FedCIRC and OMB guidance?
   e. What is the required average time to report to the agency
                                                                           Within 24 hours
   and FedCIRC following an incident?
   f. How does the agency, including the programs within                  By conducting
   major components, confirm that patches have been tested                scans using
   and installed in a timely manner?                                      Symantec’s
                                                                          Enterprise
                                                                          Security
                                                                          Management
                                                                          (ESM)
                                                                          assessment
                                                                          software.

                                                                              FY01      FY02
    g. By agency and individual component, number of                           4         3*
    incidents (e.g., successful and unsuccessful network
    penetrations, root or user account compromises, denial of
    service attacks, website defacing attacks, malicious code and
    virus, probes and scans, password access) reported by each
    component.
    h. By agency and individual component, number of incidents                  4         3*
    reported externally to FedCIRC or law enforcement.
       *FCC-IG obtained documentation, which verifies the occurrence and reporting of one (1) of
        the three (3) incidents that occurred in FY02.



III. Responsibilities of Agency Program Officials

1. OMB Question:
   Have agency program officials: 1) assessed the risk to operations and assets under
   their control; 2) determined the level of security appropriate to protect such
   operations and assets; 3) maintained an up-to-date security plan (that is practiced
   throughout the life cycle) for each system supporting the operations and assets under
   their control; and 4) tested and evaluated security controls and techniques? (Section
   3534(a)(2) of the Security Act.)


                                                                                                   A-6
FCC-IG Response:

    COMPONENT OR BUREAU NAME                              TOTAL NUMBER OF
                                                                SYSTEMS
    TOTAL NUMBER OF AGENCY                           17; 2 General Support Systems
    SYSTEMS                                          (GSS) and 15 Major Applications


OMB Question:
By each major agency component and aggregated into an agency total, from last
year’s report (FY01) and this reporting period (FY02) identify actual performance
according to the measures and in the format provided below for the number and
percentage of total systems.

FCC-IG Response:

                           COMPONENT OR BUREAU NAME
                                                       FY01       FY01       FY02         FY02
                                                        #          %           #           %
   a. Systems that have been assessed for               10        59%         12          71%
   risk.
   b. Systems that have been assigned a level            17       100%         17         100%
   of risk after a risk assessment has been
   conducted (e.g., high, medium, or basic).
   c. Systems that have an up-to-date                     6       11%          16         94%
   security plan.
   d. Systems that have been authorized for               0        0%           0          0%
   processing following certification and
   accreditation.
   e. Systems that are operating without                 16       94%          17         100%
   written authorization (including the
   absence of certification and accreditation).
   f. Systems that have the costs of their               17       100%         17         100%
   security controls integrated into the life
   cycle of the system.
   g. Systems for which security controls                 8       47%           2         12%
   have been tested and evaluated in the last
   year.
   h. Systems that have a contingency plan.*             17       100%         2*         12%*
   i. Systems for which contingency plans                 0        0%          0*         0%*
   that have been tested in past year.*
      *The FY01 GISRA independent evaluation resulted in a finding that the agency’s existing
       contingency plans were outdated and recommended that the plans be updated. With the
       exception of one major application system and one general support system, during the FY02
       follow-up on prior year finding it was determined that an up to date contingency plan has not


                                                                                            A-7
           been implemented, and thus no testing had been performed. However, the agency is currently
           developing Information Technology continuity of operations and disaster recovery plans,
           which will address resumption and continuity of services for the remaining general support
           systems and major applications. The plan will also include requirements for conducting
           periodic tests of the plan.



2. OMB Question:
   For operations and assets under their control, have agency program officials used
   appropriate methods (e.g., audits or inspections) to ensure that contractor provided
   services (e.g., network or website operations) or services provided by another agency
   for their program and systems are adequately secure and meet the requirements of
   the Security Act, OMB policy and NIST guidance, national security policy, and
   agency policy? Identify actual performance according to the measures and in the
   format provided below. (Sections 3532(b)(2), 3533(b)(2), 3534(a)(1)(B) and (b)(1) of
   the Security Act.)

   FCC-IG Response:
   External contractor or other agency services are provided by: Digital Systems Group,
   Mellon Bank, JPMorgan Chase Bank, Colsen Bank, Quick Hire, the National Finance
   Center (Department of Agriculture, New Orleans), and the National Business Center
   (Department of Interior, Denver).

   Internal contractor services are provided by: Nova Technologies for ITC Operations,
   Vistronix for the Computer Resource Center, and AAC, Inc., Computech, and Zen
   Technologies for the Wireless Telecommunications Bureau.

                            COMPONENT OR BUREAU NAME
                                                                              FY01      FY02
        a. Number of contractor operations or facilities.                      9         10
        b. Number of contractor operations or facilities reviewed.             3          3


IV. Responsibilities of Agency Chief Information Officers

1. OMB Question:
   Has the agency CIO: 1) adequately maintained an agency-wide security program; 2)
   ensured the effective implementation of the program and evaluated the performance
   of major agency components; and 3) ensured the training of agency employees with
   significant security responsibilities? Identify actual performance according to the
   measures and in the format provided below. (Section 3534(a)(3)-(5)) and (Section
   3534(a)(3)(D), (a)(4), (b)(2)(C)(i)-(ii) of the Security Act.)

   FCC-IG Response:

                                                              FY01                   FY02
        a. Other than GAO or IG audits and reviews,                   10                    12


                                                                                             A-8
how many agency components and field
activities received security reviews?
b. What percentage of components and field
                                                        59%                71%
activities has had such reviews?
c. Number of agency employees including                 2,500              2,684
contractors.
 d. Number and percentage of agency                  700 (28%);       2,684 (100%);
 employees including contractors that               260 received      287 received
 received security training.                         orientation      orientation
                                                      training        training
e. Number of employees with significant
                                                         43                 59
security responsibilities.
f. Number of employees with significant
security responsibilities that received                  13                 18
specialized training.
g. Briefly describe what types of security        Orientation,        Orientation,
training were available.                          Annual and          Annual and
                                                  Specialized         Specialized
                                                  Training,           Training,
                                                  Seminars,           Seminars,
                                                  Security Notices,   Security
                                                  and SANS            Notices, and
                                                  Institute           SANS
                                                                      Institute
h. Total costs for providing training described        $35,500           $48,800
in (g).
i. Do agency POA&Ms account for all known         The quarterly POA&Ms submitted
agency security weaknesses including of all       per FY01 reporting instructions
components and field activities? If no, why       did not account for all weaknesses.
not?                                              The agency has obtained a better
                                                  understanding of the GISRA
                                                  reporting requirements.
                                                  Additionally, the initial POA&M
                                                  did not include weaknesses that
                                                  had not been issued in final
                                                  audit/evaluation reports, although
                                                  they were communicated as draft
                                                  findings. When final reports were
                                                  issued, subsequent POA&Ms were
                                                  not modified to include these
                                                  weaknesses. Going forward, all
                                                  known weaknesses will be
                                                  reflected in agency POA&Ms.
j. Has the CIO appointed a senior agency          Yes, the FCC Computer Security
information security official?                    Officer is the senior agency
                                                  information security official.


                                                                             A-9
2. OMB Question:
   For operations and assets under their control (e.g., network operations), has the
   agency CIO used appropriate methods (e.g., audits or inspections) to ensure that
   contractor provided services (e.g., network or website operations) or services
   provided by another agency are adequately secure and meet the requirements of the
   Security Act, OMB policy and NIST guidance, national security policy, and agency
   policy? Identify actual performance according to the measures and in the format
   provided below. (Sections 3532(b)(2), 3533(b)(2), 3534(a)(1)(B) and (b)(1) of the
   Security Act.)

    FCC-IG Response:

                                                                                 FY01      FY02
        a. Number of contractor operations or facilities.                         9         10
        b. Number of contractor operations or facilities reviewed.                3          3


3. OMB Question:
   Has the agency CIO fully integrated security into the agency’s capital planning and
   investment control process? Were security requirements and costs reported on every
   FY03 capital asset plan (as well as in the exhibit 53) submitted by the agency to
   OMB? If no, why not? Identify actual performance according to the measures and in
   the format provided below. (Sections 3533(a)(1)(A)-(B), (b)(3)(C)-(D), (b)(6) and
   3534(a)(C) of the Security Act.)

   FCC-IG Response:

                                                                          FY03      FY04
                                                                          Budget    Budget
                                                                         Materials Materials
        a. Number of capital asset plans and justifications                 2         5
        submitted to OMB?
        b. Number of capital asset plans and justifications                  0             0
        submitted to OMB without requisite security
        information and costs?
        c. Were security costs reported for all agency systems              yes           yes
        on the agency’s exhibit 53?
        d. Have all discrepancies been corrected?                           N/A           N/A
        e. How many have the CIO/other appropriate official                  2*            5*
        independently validated prior to submittal to OMB?
          *FCC-IG will review this information as part of the OIG's IT Capital Investment Audit that
           began on September 10, 2002.




                                                                                                A-10
                     APPENDIX B




FY 2002 Government Information Security Reform Act
         (GISRA) Independent Evaluation




Federal Communications Commission - Office of Inspector General

            Report on Automated Auction System
             (Audit Report No. 02-AUD-02-08)
                   (Previously posted on OIG Website)
A-1
